                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM




          August 30,2004

          We received several inquiries1 regarding whether NSF was complying with the rules governing
          holiday pay to employees. AAer researching the law governing holiday pay and the facts regarding,
          who, if anyone, might have been entitled to it in connection with work performed on holidays, we
          determined that NSF's policy was unclear.

          We discussed this matter with both OGC and HRM which resulted in the issuance of NSF Bulletin
          04-04, dated August 26,2004, clarifying the rules governing holiday pay.

          Accordingly, this case is closed.




NSF OIG Form 2 (1 1/02)
